Testimony 02-02-2000                                                                 Page 1 of 7




               STATUS OF INTERNAL REVENUE SERVICE REFORM


                                HEARING BEFORE THE
                               COMMITTEE ON FINANCE

                               UNITED STATES SENATE



                                   FEBRUARY 2, 2000




                           STATEMENT FOR THE RECORD




                          DAVID C. WILLIAMS
                        INSPECTOR GENERAL
         TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




file://C:\Documents%20and%20Settings\roy\Desktop\gopdf\html\testimony_02022000.htm    5/26/2004
Testimony 02-02-2000                                                                   Page 2 of 7




    Mr. Chairman and members of the committee, I appreciate the opportunity to appear
    before you today to discuss the progress the Internal Revenue Service (IRS) has
    made in the past year and the challenges that lie ahead.

    I agree with Commissioner Rossotti’s statement that, "Modernizing the IRS is a
    massive undertaking and will take years to complete and depends upon changes in
    the organization and technology." The IRS is undertaking a complex, multifaceted
    approach to restructure its processes and operations. The changes that are taking
    place within the IRS affect almost every aspect of its operations. Also, modernization
    of its computer systems is crucial to implementing the new business vision of
    providing world-class service to taxpayers.

    Progress is often occurring at a slow and methodical pace, but some positive results
    are being realized. In response to the IRS Restructuring and Reform Act of 1998
    (RRA 98), the IRS has begun to transform itself so that it will operate better and
    service its customers more efficiently. It has also begun the process of restructuring
    the organization into four new operating divisions that serve groups of taxpayers with
    similar needs. The leaders of these units are now in place, and the Tax
    Exempt/Government Entities Division is beginning operations.

    The IRS is also expanding its operations through the use of technology. Electronic
    filing programs such as Telefile, E-file, and On-line filing increased substantially last
    year, providing taxpayers with the ability to file returns from their home computers.
    This type of technology produces faster refunds, reduces errors, and reduces costs.
    The IRS has also introduced a 24-hour-a-day/7 day-a-week telephone service,
    expanded its walk-in service hours, and provided translators for taxpayers who do not
    feel comfortable using English.

    The IRS has changed its mission statement to stress its role in helping taxpayers
    meet their tax obligations. Full implementation of the RRA 98 provisions should result
    in enhanced taxpayer protection and rights, as well as organizational changes
    intended to achieve a more efficient and responsive organization. As we observe the
    progress being made, my office is focused on certain aspects that bear close
    observation or that we believe could inhibit the success of current operations or
    planned initiatives.

    The IRS must continue to address management and operational issues to provide
    first-rate customer service and ensure compliance with the tax laws. The challenge for
    the IRS is to achieve both of these goals within the constraints of existing resources.
    The global economy is also growing rapidly and is generating increasingly
    sophisticated and complex business transactions. The IRS must develop effective
    compliance programs for this expanding segment of taxpayers.

    Financial Management

    Improvements have been made, but the IRS’ accounting systems do not conform to
    federal accounting standards, nor will they for several years. The lack of standard
    accounting tools imposes ongoing costs, impedes the ability of the IRS to serve




file://C:\Documents%20and%20Settings\roy\Desktop\gopdf\html\testimony_02022000.htm      5/26/2004
Testimony 02-02-2000                                                                   Page 3 of 7



    taxpayers adequately and prevents the IRS from effectively addressing material
    weaknesses cited by the General Accounting Office (GAO). In addition, the GAO,
    which has overall responsibility to audit the IRS’ financial statements, has reported six
    material weaknesses involving the following: inadequate financial reporting processes,
    supporting subsidiary ledger and documentation for unpaid assessments, controls
    over refunds, controls over fund balance with the Department of Treasury, controls
    over property and equipment, and computer security.

    The Government Performance and Results Act of 1993

    The IRS uses a strategic planning process that describes how goals and objectives
    are to be achieved and provides clear links between performance measures and the
    funding requests. However, TIGTA’s review found the IRS’ overall strategic plan and
    its Fiscal Year 2000 Annual Performance Plan were not in complete compliance with
    the Government Performance and Results Act of 1993 (GPRA), Office of Management
    and Budget (OMB), and Department of the Treasury guidelines. The IRS’ strategic
    plan did not: explain how performance measures and goals relate to each other,
    address external factors that impact its mission and goals, and describe program and
    system evaluations. TIGTA recommended to the IRS, and they agreed, to designate
    an office responsible for oversight and coordination of GPRA requirement activity
    throughout the IRS.

    Because the IRS is undergoing such a complete transformation of its business
    processes, its performance measures are being re-evaluated. The IRS is developing a
    new balanced performance measurement system that will focus on accomplishments
    in three major areas: business results, customer satisfaction, and employee
    satisfaction. Commissioner Rossotti has indicated that it will take several years to
    achieve a fully acceptable set of balanced measures that can be used at all levels of
    the organization.

    Management Information Systems

    IRS management should be able to rely on computer programs and applications that
    provide timely and accurate data for analysis and functional control. Management
    information is a critical tool in monitoring progress and identifying vulnerabilities and
    production concerns. Not all IRS management information systems provide sufficient
    data to ensure taxpayer rights are protected and its financial management systems do
    not provide reliable data for the IRS’ financial statements. For example, the IRS did
    not have a reliable management information system to measure the Innocent Spouse
    Program accomplishments and results. The IRS also did not have a database to
    reliably track innocent spouse case closures. As a result, accurate information was not
    available on the number of innocent spouse cases closed, how they were closed, or
    the status of claims in inventory.

    Taxpayer Compliance

    Voluntary – IRS statistics indicate that collections from personal income taxes
    increased by almost eight percent in 1999, while collections of corporate income taxes
    decreased by two percent during a dramatic economic upturn.




file://C:\Documents%20and%20Settings\roy\Desktop\gopdf\html\testimony_02022000.htm      5/26/2004
Testimony 02-02-2000                                                                   Page 4 of 7



     Enforcement – From Fiscal Year 1996 to Fiscal Year 1999, enforcement revenue
    collected by the IRS has decreased by 13 percent, or $5 billion, and seizures dropped
    from over 10,000 to 161. These issues can be largely attributed to the IRS’ shrinking
    workforce, budgetary constraints and resource management decisions. In addition, a
    significant number of Examination and Collection resources have been reassigned to
    work for the IRS’ Customer Service Division and also to help implement restructuring
    and reform activities.

    In an effort to resolve these situations, Commissioner Rossotti has stated that the
    President’s Fiscal Year 2001 IRS budget would allow the agency to move more
    resources into the Compliance area. Even so, as noted by this committee, all of the
    changes being made by the IRS will not be immediately apparent. Some differences
    may only be recognized once the RRA 98 is completely implemented and understood
    by IRS employees.

    Customer Service

    Providing top quality service to each taxpayer is one of the strategic goals of the IRS’
    modernization plans. Although the IRS implemented numerous initiatives during the
    1999 filing season that were intended to enhance customer service, the IRS was not
    able to satisfactorily handle the level of customer demand on its toll-free telephone
    lines. The cost to provide toll-free telephone service during the 1999 filing season
    increased while productivity decreased. About 19.5 million calls resulted in busy
    signals and the level of service provided declined from 73 percent for the 1998 filing
    season to 51 percent for the 1999 filing season.

    In addition, the IRS’ written communications, such as notices, are widely criticized as
    hard to understand. For example, to claim the Additional Child Tax Credit, taxpayers
    must have three or more qualifying children. Taxpayers who claimed this credit, but
    had fewer than three qualifying children, were sent a generic notice which stated, "You
    incorrectly figured your Additional Child Tax Credit on Form 8812. We adjusted your
    credit accordingly." Taxpayers receiving this notice would not necessarily know they
    did not have enough qualifying children to claim the Additional Child Tax Credit.

    Information Technology

    Modernization of the IRS’ antiquated computer systems has been a major concern for
    more than a decade. A prime integration vendor has been contracted to coordinate
    with the IRS in implementing the overall IRS Modernization Blueprint. This initiative is
    anticipated to be a multi-billion dollar contract up to a 15-year period.

    The IRS is in the very early phases of its computer modernization efforts. Initiatives to
    date, which have been funded for about $68 million, have primarily focused on
    establishing program management processes and architectural standards for the
    computer modernization, developing partnership roles and responsibilities with the
    PRIME contractor, and building business cases for the first of the planned
    modernization projects. The IRS has also identified, and is addressing, risks to the
    success of the computer modernization.

    The IRS may be at risk of not meeting its schedule to deliver its initial modernization



file://C:\Documents%20and%20Settings\roy\Desktop\gopdf\html\testimony_02022000.htm      5/26/2004
Testimony 02-02-2000                                                                     Page 5 of 7



    projects, scheduled for rollout in the Year 2001 filing season, which includes improving
    service to taxpayers who call the IRS for help. This potential condition is due to delays
    in finalizing business cases for the projects and difficulties in filling critical vacancies
    on the project teams. The delays are also putting the IRS at risk of running out of
    modernization funding, which Office of Management and Budget is releasing from the
    congressionally appropriated Information Technology Investments Account on an
    incremental basis only as business cases are approved. This situation could result in
    projects being shut down for periods of time until business cases are approved and
    funding is released.

    Key goals, such as 80 percent of tax returns being filed electronically by theYear 2007
    and significantly improving levels of service in answering taxpayers’ questions, are
    contingent on the development of new technology. While the development of new
    technology evolves, existing operations must continue. However, a significant
    challenge is the ability of the IRS executives and managers to oversee a project as
    large as their modernization project, while effectively transitioning employees and
    processes into a new organization.

    One of the biggest concerns in the area of information technology was the effect the
    century date change had on agency systems. Although the IRS’ computer systems did
    not experience any major problems as a result of the century date change, the IRS
    has not yet processed all taxpayer returns through all of its production cycles. The IRS
    will need to continue monitoring its systems to assure that production glitches do not
    impair its ability to process tax information and compute tax liabilities, including
    interest and penalties, accurately. TIGTA will pay close attention to this concern
    during its ongoing tax filing season audits.

    Computer Security

    The IRS has made progress in addressing computer security issues, but significant
    risks still exist. The IRS is addressing these vulnerabilities through a risk-based
    approach, which was initially geared to identifying and correcting security weaknesses
    at its major computing and tax processing centers. Over the past two years, the IRS
    has expanded its computer security assessments to other IRS facilities. These efforts
    should help reduce the risk of unauthorized access to sensitive taxpayer information
    and/or destruction of major IRS systems and data.

    However, recent TIGTA audits have identified additional weaknesses in the areas of
    security controls over the IRS’ computer facilities, networks and systems. For
    example, the certification of security controls for sensitive computer systems continues
    to be a material weakness for the IRS, disaster recovery plans should be improved,
    and a more effective virus protection program needs to be established. Until these
    weaknesses are resolved, IRS systems and data are vulnerable to tampering, loss or
    unauthorized disclosure. Once the IRS has mapped its computer architecture, it will
    be better able to identify security vulnerabilities, and detect systems anomalies and
    suspicious activity.

    TIGTA has developed a computer security program to investigate indications of both
    external and internal improper access to IRS computers. TIGTA’s Office of
    Investigations’ Strategic Enforcement Division is responsible for developing an




file://C:\Documents%20and%20Settings\roy\Desktop\gopdf\html\testimony_02022000.htm        5/26/2004
Testimony 02-02-2000                                                                    Page 6 of 7



    aggressive program for the investigation of any attempts to interfere with the operation
    and security of IRS computer systems. While TIGTA will continue to be responsible for
    pursuing intentional attempts to interfere with IRS computer systems, the IRS remains
    responsible for the overall security protection of its systems.

    Another TIGTA group focuses on the threat posed by IRS employee misconduct as it
    relates to misuse of taxpayer information. This group is responsible for identifying and
    investigating unauthorized electronic accesses to Federal taxpayer records.

    Electronic Filing

    TIGTA has conducted recent reviews of the IRS’ controls over selected components of
    the Electronic Filing Program. These reviews focused on the process and standards
    for admitting preparers to the Return Preparer Program and on procedures to identify
    and remove dishonest preparers. TIGTA concluded that IRS management needs to
    increase emphasis and oversight to ensure the Return Preparer Program activities are
    monitored and potentially fraudulent return preparer schemes are identified. IRS
    management also needs to eliminate the appearance of a conflict of interest by
    separating duties so that coordinators responsible for promoting the Electronic Filing
    Program are also not responsible for disqualifying preparers who fail to comply with
    electronic filing procedures.

    The IRS Restructuring and Reform Act of 1998

    Although the IRS is making progress in its implementation of the RRA 98 provisions,
    TIGTA’s audit work indicates that the provisions surrounding taxpayer protection and
    rights issues have not yet been successfully implemented. For example, the IRS:

             {   identified approximately 525 violations during its first independent reviews
                 and quarterly certifications; and TIGTA identified an additional 96 violations
                 where IRS management used tax enforcement results to evaluate
                 employees, or imposed or suggested employee production quotas or
                 goals, e.g., evaluations contained references to fraud referrals, dollars
                 assessed or collected, or case closures.
             {   did not consistently implement federal tax lien provisions – 33 percent of
                 the 157 cases TIGTA reviewed involved potential violations of legislative or
                 procedural requirements,e.g., taxpayers were not given the full 30 calendar
                 days to request a hearing, and sufficient documentation was not retained
                 to prove that lien notices were sent to taxpayers or were sent timely.
             {   did not always follow all legal and internal guidelines when conducting
                 seizures – 36 percent of the 92 taxpayer seizure cases reviewed did not
                 follow all legal and internal guidelines, e.g., business property was seized
                 without obtaining the required approvals, and taxpayers were not
                 personally warned before the seizure action occurred.
             {   had not fully implemented new procedures to notify taxpayers before taking
                 funds for payment – 32 percent of the 284 accounts reviewed did not follow
                 legal provisions, e.g., taxpayers were not notified of the IRS’ intent to levy
                 and of their appeal rights before levies were issued.

    Section 1203 Violations -- As you know, there has been much confusion and



file://C:\Documents%20and%20Settings\roy\Desktop\gopdf\html\testimony_02022000.htm       5/26/2004
Testimony 02-02-2000                                                                    Page 7 of 7



    consternation surrounding Section 1203. For several months, baseless rumors
    circulated throughout the IRS that thousands of Section 1203 investigations were
    being conducted. Many employees voiced concerns about this section of the Act and
    the investigation of allegations made under it. While TIGTA has received over 900
    complaints, we determined that only 218 of these complaints warranted investigation
    as possible Section 1203 allegations. We referred 87 of these completed
    investigations to the IRS for adjudication. IRS management is emphasizing to its
    employees that disciplinary action will not be imposed on those employees who make
    honest mistakes.

     TIGTA’s Role -- Another provision of the RRA 98 was the creation of our office.
    TIGTA is dedicated to ensuring that IRS employees treat taxpayers with the highest
    degree of integrity and fairness so as to maintain trust in our tax administration
    system. To better accomplish our mission, we immediately abolished the prior regional
    structure, which eliminated an unnecessary and remote layer of management. In
    addition, we reorganized the Office of Investigations into direct report field offices, and
    we have assumed responsibility for investigating internal misconduct cases. We have
    worked with the IRS to understand this new workload. The Office of Audit also
    reorganized into specialized issue areas that parallel the new IRS business unit
    structure. Finally, as previously mentioned, we created the Office of Investigations’
    Strategic Enforcement Division to meet threats of computer crimes within the IRS and
    to pursue external intruders through cyberspace and to bring criminal charges and
    civil monetary actions against them.

     The IRS is modernizing, reforming and restructuring business processes and its
    organizational structure. The size of the agency, the absence of reliable management
    information, and employee fears and resistance to change hamper its speed.

    I believe that the current approach, while daunting, is the right one. Past efforts at
    reform have been ineffective and focused on symptoms rather than the ailments that
    have plagued the agency. Ultimately, the past patchwork of repairs failed, with the IRS
    falling back into chronic problems.

    The IRS and its stakeholders need to closely watch the velocity of the reforms, yet
    understand the magnitude of what is being done. Together, we need to maintain a
    determination that this time we are committed to making long-term improvements in
    the IRS. It will be some time before all of the benefits of the reform can be realized by
    the American public, but the initiative is vital. The IRS is an essential element of the
    Federal government and must reflect the highest values of the American character.




file://C:\Documents%20and%20Settings\roy\Desktop\gopdf\html\testimony_02022000.htm       5/26/2004
